<html>
<title> - AN INDEPENDENT PERSPECTIVE OF UNITED STATES DEFENSE POLICY IN THE ASIA- PACIFIC REGION</title>
<body><pre>[Senate Hearing 114-600]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-600

                     AN INDEPENDENT PERSPECTIVE OF
                      UNITED STATES DEFENSE POLICY
                       IN THE ASIA PACIFIC REGION

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2016

                               __________

         Printed for the use of the Committee on Armed Services




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









        Available via the World Wide Web: http://www.fdsys.gov/



                               ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-931 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  













                            C O N T E N T S

                               __________

                      wednesday, february 3, 2016

                                                                   Page

AN INDEPENDENT PERSPECTIVE OF UNITED STATES DEFENSE POLICY IN THE 
  ASIA-PACIFIC REGION............................................     1

Green, Michael J., Senior Vice President for Asia and Japan 
  Chair, The Center for Strategic and International Studies......     4
Conant, Lieutenant General Thomas L., USMC (Ret.), Former Deputy 
  Commander, United States Pacific Command.......................     9

                                 (iii)

 
AN INDEPENDENT PERSPECTIVE OF UNITED STATES DEFENSE POLICY IN THE ASIA-
                             PACIFIC REGION

                              ----------                              


                      Wednesday, February 3, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Ayotte, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Reed, Nelson, 
McCaskill, Manchin, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Armed Services Committee 
meets this morning to receive testimony on United States 
defense policy in the Asia-Pacific. The National Defense 
Authorization Act [NDAA] for Fiscal Year 2015 instructed the 
Secretary of Defense to commission an independent review of 
United States rebalance to the Asia-Pacific. This review would 
assess the risks to U.S. national security interests in the 
region, analyze current and planned U.S. force structure, and 
evaluate key capability gaps and shortfalls.
    The Center for Strategic and International Studies was 
selected to conduct this review, and they have now provided it 
to the Congress. I offer my thanks and appreciation to CSIS for 
a first-rate independent assessment of our policy in the Asia-
Pacific region. Reports like these are an invaluable way for 
this committee to gain insights and consider serious 
recommendations on the way forward.
    To present the review's findings, I am pleased to welcome 
Dr. Michael Green, senior vice president for Asia and Japan 
chair at CSIS and one of the report's study directors; and 
Lieutenant General Thomas Conant, former deputy commander at 
U.S. Pacific Command [PACOM] and a member of the report's 
senior review board.
    America's national interests in the Asia-Pacific region are 
deep and enduring. We seek to maintain a balance of power that 
fosters the peaceful expansion of free societies, free trade, 
free markets, and free commons--air, sea, space, and cyber. 
These are values that we share with an increasing number of 
Asia's citizens. And for 7 decades, administrations of both 
parties have worked with our friends and allies in the region 
to uphold this rules-based order and to enlist new partners in 
this shared effort.
    This is what the rebalance to Asia-Pacific is supposed to 
be all about. The rebalance has shown some success, including 
efforts like the Trans-Pacific Partnership [TPP]; new levels of 
cooperation between Japan, Australia, and India; and new forms 
of military access to the Philippines, Australia, Singapore, 
and Vietnam.
    But ultimately, the rebalance policies fail to adequately 
address the shifting military balance in any serious manner. I 
note the report's conclusion that, and I quote, ``The Obama 
administration has not articulated a clear, coherent, or 
consistent rebalance strategy. The U.S. rebalance must be 
enhanced if the United States is to defend its vital interests 
in the PACOM area of responsibility.''
    China is engaged, as we all know, in a rapid military 
modernization deliberately designed to counteract or thwart 
American military strengths. Under Xi Jinping, China is not 
just building up its military but reorganizing it to better 
wage modern, joint warfare at the close direction of the 
Chinese Communist Party.
    Despite their claims to the contrary, make no mistake, the 
Chinese are not done with their land reclamation activities in 
the South China Sea. Indeed, it has been disappointing to see 
how the United States seems to have been totally caught off 
guard by the pace and scope of these activities.
    A year ago this month, this committee held a hearing with 
Director Clapper where we discussed Chinese reclamation. At 
that time, China had reclaimed a total of 400 acres in the 
Spratly Islands. Today, that figure is a staggering 3,200 
acres, with extensive infrastructure construction underway or 
already complete.
    It is shameful that what is known publicly about China's 
reclamation activities has come from the CSIS Asia Maritime 
Transparency Initiative and not the United States Government, 
which should have been providing needed strategic clarity by 
releasing photos of these developments every step of the way.
    While our government has fallen short, we owe a debt of 
gratitude to CSIS for providing true transparency of China's 
maritime activities.
    Going forward, routine naval and aviation presence and 
freedom of navigation operations are necessary to demonstrate 
that the United States will not recognize the legality of 
China's excessive claims, and will continue to fly, sail, and 
operate wherever international law allows.
    I was pleased to see the freedom of navigation operation in 
the Paracel Islands last week, and I look forward to seeing 
another conducted inside 12 nautical miles of Mischief Reef in 
the near future.
    The Pacific theater of World War II taught this Nation, at 
a terrible price, that we cannot afford to garrison our 
military power back in Hawaii or the continental United States. 
If anything, China's activities in the South China Sea, and the 
instability and uncertainty they have generated in the Asia-
Pacific, are a reminder of the importance of sustaining a 
predictable, credible, and robust forward presence capable of 
shaping the peacetime security environment and prevailing in 
the event of conflict.
    This is a major focus of the CSIS report, and we look 
forward to hearing from our witnesses on its specific 
recommendations.
    For example, given the demands on our carrier fleet 
globally, the sailing time required to traverse the Pacific 
Ocean, the additional combat power a second carrier would 
provide, and the strong signal it would send our partners in 
the region, I believe we should take a hard look at the trade-
offs associated with stationing a second carrier in the 
Pacific.
    Even as we devote the preponderance of our attention and 
funding to large platforms like aircraft carriers, we must 
remember that they are only as effective as the payloads they 
are able to deliver. We cannot lose sight of the importance of 
weapons, sensors, decoys, jammers, and other technologies to 
our warfighting effectiveness. And we must continue to push the 
envelope in adapting and innovating existing payloads to 
deliver new capabilities.
    These will be a key element in closing the gap identified 
by the CSIS report in capabilities that give the United States 
an asymmetric, cost-imposing counter to potential competitors.
    I also would like to note the CSIS report's endorsement of 
the relocation plan for United States facilities in Okinawa. I 
continue to support the current relocation plan, including the 
construction of the Futenma Relocation Facility; the ultimate 
closure of Marine Corps Air Station Futenma; and the 
redeployment of Marines to Guam, Australia, and Hawaii.
    Taken together, this plan will reduce our overall presence 
in Okinawa, relocate United States forces to less populated 
areas of the island, and generate a more operationally 
resilient force posture across the region.
    Despite a series of setbacks in the past year, I continue 
to have confidence that Prime Minister Abe and the Government 
of Japan will be able to execute the necessary realignment of 
United States force in Okinawa.
    This committee will also continue its oversight of the 
buildup on Guam, including the cost of new housing construction 
there.
    There are several more important issues I hope we will 
discuss throughout the course of the hearing, and this 
committee's ongoing consideration of the CSIS report and its 
recommendations.
    Once again, I would like to thank all those at CSIS who 
worked so hard on this important report, and I look forward to 
the testimony of our witnesses.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Let me 
thank you for calling this very, very important hearing.
    I also want to welcome our witnesses, Dr. Green and General 
Conant. Thank you for your extraordinary service.
    The report recently issued by CSIS is very thoughtful in 
addressing the challenges that we face in the Asia-Pacific 
region. Thank you for that.
    In the last few years, security in the region has grown 
more complicated and challenging for the United States. China 
has become more assertive in the South China Sea, alarming its 
neighbors and militarizing land features in a body of water 
that is critical for trade and regional peace.
    Kim Jong-un has destabilized the Korean Peninsula even 
further with nuclear and ballistic missile developments.
    Regimes as authoritarian and insulated as North Korea are 
brittle and prone to collapse. How we would deal with such a 
collapse, and the security and humanitarian problems that would 
ensue, is an ongoing debate and challenge for United States 
Forces Korea and PACOM.
    As the Asia-Pacific region grows more complicated, the 
Defense Department faces an increasing number of international 
challenges also, including ISIL [the Islamic State of Iraq and 
the Levant] as a growing international threat; and a resurgent 
Russia, which is exerting its military influence to undermine 
European security, further destabilizing the Middle East and 
also obviously has access to the Pacific.
    Additionally, we face an increasingly austere fiscal 
environment. We must learn to do more with less.
    While the administration has sought to rebalance the Asia-
Pacific region, where most of our long-term strategic interests 
lie, that effort has faced challenges from the exigencies of 
the day.
    I appreciate the time and effort that went into producing 
this thoughtful report, and I would like to hear from the 
witnesses about how we should position ourselves to better 
implement the rebalance within the context of the global 
challenges facing the Department of Defense and the government 
as a whole.
    Thank you very much, gentlemen.
    Chairman McCain. Dr. Green?

 STATEMENT OF MICHAEL J. GREEN, SENIOR VICE PRESIDENT FOR ASIA 
  AND JAPAN CHAIR, THE CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Dr. Green. Mr. Chairman, Ranking Member Reed, members of 
the committee, and staff, thank you for this opportunity on 
behalf of my co-leads at CSIS, Dr. Kathleen Hicks and Mark 
Cancian, and all of the contributors to the report, including 
our excellent senior review panel, represented today by 
Lieutenant General Conant. This is an opportunity that we 
appreciate, to give you the results of our study.
    We conducted this study in a first iteration in 2012 and 
concluded that the rebalance to the Asia-Pacific is worthy of 
our support and our efforts but needed more intense strategic 
conceptualization and resourcing. We concluded at that time 
that the United States interest is in shaping an environment in 
the Asia-Pacific region where cooperation with China and among 
all countries is possible but that to build that future we had 
to have deterrent capabilities, the partnerships, the presence, 
the capacity, to ensure that no one country tried to change the 
rules that have governed this region and led to peace and 
prosperity for many decades.
    Since 2012, four developments have made a reassessment of 
the rebalance necessary.
    First, defense budget cuts have limited the Department of 
Defense's ability to implement critical rebalance initiatives, 
particularly as those resources come under stress from 
challenges in EUCOM [United States European Command] and 
CENTCOM [United States Central Command].
    Second, the threat from so-called anti-access/area denial, 
A2/AD [anti-access/area-denial], is growing as states in the 
region seek to deny the United States the ability to project 
power or even maintain bases in the Western Pacific.
    Third, I think we have found in the last 2 years that 
China's tolerance for risk in relations with the United States 
and neighboring countries is significantly higher than anyone 
would have anticipated.
    And fourth, North Korea has demonstrated that it will 
continue with impunity on its program to develop nuclear 
weapons and the ballistic missiles to deliver them against our 
allies and, their ultimate goal, the United States itself.
    Taken together, these trends suggest that the United States 
rebalance must be enhanced, if the U.S. is to defend our 
interests and our allies in the Asia-Pacific region. To that 
end, CSIS, in this report, has made four major recommendations 
for strengthening the rebalance.
    First, and this was a theme in our first report, and one 
the chairman just mentioned, the United States has to align our 
Asia strategy within the United States Government and with 
allies and partners, and articulate the strategy in a way that 
is compelling, that provides guidance to our forces, and 
confidence to our allies.
    When we began working on this project, we asked where we 
could find a document that described the strategic concept of 
the rebalance, and we were recommended to read the speeches 
about the rebalance by principles in the administration, and we 
did. And you will see in the report our findings that, in many 
cases, the articulation of our strategy is inconsistent, that 
priorities are listed differently, appear and disappear.
    And so there is still, in the region among our allies, and 
I think with our commands, some confusion about not the 
importance of the Pacific--I think that is clear--not the 
importance of rebalancing our forces in the Pacific, but what 
is our bottom line? What are we willing to defend? How do we 
view, for example, China's operations in the South China Sea? 
What is the degree of our willpower? These are questions we 
continue to hear.
    So our first recommendation is that the administration 
needs to, with Congress and with our allies, work on aligning 
our views of the strategy and clarifying our concept. The 
Congress has already required the next administration to do an 
interagency report on Asia strategy. We fully endorse that. We 
recommend that the Congress consider establishing an Asia-
Pacific observers group, comparable to the arms control 
observers group in the Cold War era, to help make sure that our 
message to allies and between branches of government is well-
aligned.
    The second recommendation, the United States, in our view, 
needs to strengthen ally and partner capability, capacity, 
resilience, and interoperability. We have different allies and 
partners in the Asia-Pacific region at different levels of 
technical competence, different geographic circumstances. At 
the high end, with allies like Japan, Australia, the Republic 
of Korea, we recommend moving toward more of a federated 
defense concept, where we are pooling our best technology and 
resources. A good example of that potential is evident in the 
Japanese and Australia discussions of jointly developing a new 
diesel attack sub.
    Second, we believe that states that are struggling to 
maintain capacity and resilience in the face of a significantly 
larger Chinese military presence, the Philippines and so forth, 
need our help with basic capabilities such as maritime domain 
awareness. Fortunately, Japan, Korea, Australia, our major 
partners, are helping, and we should network with these allies 
to help frontline states, like the Philippines, with their own 
capacity and resilience.
    And third, we recommend creating a new joint task force for 
the Western Pacific. The reason is that, in discussions with 
our allies in particular, we found a disconnect in command and 
control when it comes to these maritime problems. We have a 
joint and combined command in Korea, very effective. But the 
challenge in the East China Sea and South China Sea is such 
that we think that both the Pacific Command and our Japanese 
allies need to create command-and-control structures that in 
real-time are working together constantly, that are agile and 
ready for the challenges we face.
    Our third recommendation, the U.S. should sustain and 
expand our regional presence. We recommend continuing to 
implement and resource key posture initiatives in Japan, 
Australia, and, of course, Guam, and also increasing in some 
areas our forward capabilities. Particularly important are 
amphibious lift, which is insufficient for the Marine Corps 
even before we distribute them to Guam, to northern Australia. 
Second, additional attack subs--undersea warfare is our trump 
card, our long-term advantage.
    And we recommended studying the deployment of a second 
carrier in the Western Pacific, probably in Yokosuka. That is a 
big thing to take on, but we think there is merit, as the 
chairman mentioned.
    Finally, we recommended that the United States accelerate 
the development of innovative concept capabilities to deal with 
the A2/AD environment that is becoming increasingly 
challenging, including things like innovative missile defense 
from direct energy to railgun, to powder guns to prevent 
competitors from imposing costs on us and to develop more cost-
effective countermeasures ourselves. This will cost money, but, 
in our view, many of the initiatives described are within the 
realm of the possible if we take the threat and our interests 
seriously.
    And I would conclude by saying, while the committee asked 
us to focus, in particular, on the Department of Defense [DOD] 
and the Pacific Command's responsibilities, Asia is a region 
where the United States has, on the whole, succeeded for over 
200 years because we have combined our military capabilities 
with a commitment to trade, to supporting our democratic 
values, and to building partnerships. So we are describing one 
tool in a broader strategic toolkit necessary for the United 
States.
    Thank you.
    [The prepared statement of Dr. Green follows:]

Prepared Joint Statement by Dr. Michael J. Green and Lt. Gen. Thomas L. 
                                 Conant
    Thank you Chairman McCain, Ranking Member Reed, members of the 
Committee, and staff. We appreciate this opportunity to testify today 
on our views of the United States rebalance to the Asia-Pacific and the 
importance of strengthening United States commitment to the Asia-
Pacific region.
                         independent assessment
    Congress directed in the National Defense Authorization Act of 2015 
that the Department of Defense solicit an independent organization to 
assess United States strategy and force posture in the Asia-Pacific 
region, as well as that of U.S. allies and partners. The Department of 
Defense chose CSIS to conduct that assessment. CSIS built on a previous 
Congressionally-required assessment of United States defense posture in 
the Asia-Pacific. That assessment looked specifically at the 
realignment of U.S. Marines and their dependents and was concluded in 
2012.
    The current study required us to assess the region more broadly, 
and to achieve that wider view we assembled CSIS experts on the full 
range of the Asia-Pacific, as well as on defense capabilities and 
development. Research included interviews with leading defense and 
security officials, experts, and military officers throughout the 
United States government and foreign capitals. Michael Green, Kathleen 
Hicks, and Mark Cancian led that study for CSIS and were aided by a 
senior advisor group that includes General Conant. The report before 
you reflects the seriousness with which CSIS undertook this assessment 
as well as the range of challenges and opportunities facing the United 
States across the Asia-Pacific region.
                              key findings
    The CSIS study team made four main findings about the security 
situation in the Asia-Pacific. The first two findings concern the need 
for greater commitment and direction from Washington, the second two 
findings address Beijing's growing capabilities and increased appetite 
for risk.
    First, the Obama administration has not articulated a clear, 
coherent, or consistent rebalance strategy, particularly when it comes 
to managing China's rise. Many U.S. allies and partners in the region 
are looking to uphold the regional and international order that has 
enabled so many people throughout Asia to enjoy greater security and 
prosperity. Yet, too often U.S. statements have listed different 
objectives and priorities for the rebalance to Asia, confusing even the 
most careful observers. Without a single strategy document to guide the 
rebalance, this confusion will continue.
    Second, defense budget cuts have limited the Defense Department's 
ability to the implement critical rebalance initiatives. Cuts to the 
defense budget, and in particular the uncertainty caused by the 
combination of sequestration and the Budget Control Act, leave the 
Defense Department insufficient resources, and insufficient 
flexibility, to prepare for the growing range of challenges confronting 
the United States. Additionally, meeting demands in other regions--from 
ISIS to Russia--will require a level of resources and agility that is 
impossible under the current budget arrangements.
    Third, the threat from so-called anti-access/area denial (A2/AD) 
threats is rising as some states seek to deny the United States the 
ability to project power in Asia. The breadth and pace of A2/AD 
investments throughout Asia, especially by China, are creating the 
potential for countries to hold at risk U.S. forward deployed and 
forward operating forces throughout the Western Pacific. Regional A2/AD 
capabilities are evolving more rapidly than the U.S. ability to counter 
them, requiring that the Department of Defense and regional allies work 
together if they are to maintain the ability to project power in East 
Asia.
    Fourth, China's tolerance for risk has exceeded most expectations. 
China has surprised many experts by engaging in a series of coercive 
actions against neighboring states, including the creation of 
artificial features in disputed waters of the South China Sea. China's 
apparent willingness to challenge vital elements of the existing rules-
based regional and international order should be of concern to U.S. 
policymakers, and to others around the world who believe a rules-based 
order provides benefits to all.
    Taken together these trends suggest that the U.S. rebalance must be 
enhanced if the United States is to defend its vital interests in the 
PACOM area of responsibility. Executing an effective Asia strategy will 
require a clear and consistent but agile approach; continuous dialogue 
with regional allies, partners, and competitors; robust economic 
engagement throughout the region; development of new military concepts 
and capabilities for deterrence, defense, and crisis management; and 
close cooperation between the executive and legislative branches. We 
suggest 29 recommendations for doing so.
                          main recommendations
    The report's recommendations fall into four key areas, discussed 
briefly below. Efforts are ongoing in many of these areas and should 
remain top priorities, but additional efforts are needed in other areas 
to adequately implement the rebalance.
    First, the United States should align Asia strategy within the U.S. 
government and with allies and partners. Although the Obama 
administration issued a series of speeches and documents on the 
rebalance, there remains no central U.S. government document that 
describes the rebalance strategy and its associated elements. In 
interviews with leaders throughout the Department of Defense, in 
various U.S. agencies, on Capitol Hill, and across the Asia-Pacific, 
the study team heard consistent confusion about the rebalance strategy 
and concern about its implementation. Indeed, a 2014 study by CSIS 
found that language used to describe the rebalance has changed 
substantially since its announcement in 2011. Addressing this confusion 
will require that the executive branch develop and then articulate a 
clear and coherent strategy and discuss that strategy with Congress as 
well as with allies and partners across the world. We recommend 
preparing an Asia-Pacific strategic report; increasing administration 
outreach to Congress through an Asia-Pacific Observers Group; ensuring 
alignment between strategy and resources in the next QDR (now known as 
the Defense Strategy Review); better coordinating U.S. strategy with 
allies and partners; and expanding confidence building mechanisms and 
crisis management with China.
    Second, the United States should strengthen ally and partner 
capability, capacity, resilience, and interoperability. The United 
States needs robust allies and partners across the Asia-Pacific, but we 
found growing concern that security challenges are outpacing the 
capabilities of regional states. Many allies and partners are 
struggling to mitigate security risks, particularly those having to do 
with maritime disputes in the South China Sea and East China Sea. The 
United States seeks and benefits from the success of all states 
throughout the region, so building ally and partner security capability 
and capacity is in the U.S. interest. Working together more closely, 
through coordination of strategic approaches and greater 
interoperability, is an important step in this direction. Strengthening 
regional security capability, capacity, resilience, and 
interoperability requires a differentiated strategy that works with 
highly capable militaries like Japan, Australia, India, South Korea, 
and Singapore while also assisting states in Southeast Asia struggling 
to meet basic defense needs. We recommend pursuing what we call 
federated approaches with highly capable regional allies; building 
maritime security capacity in Southeast Asia; forming a standing U.S. 
joint task force for the Western Pacific; encouraging Japan to 
establish a joint operations command; and deepening regional whole-of-
government humanitarian assistance and disaster relief expertise.
    Third, the United States should sustain and expand its regional 
military presence. We encountered concern both in Washington and in 
foreign capitals about the sustainability of U.S. military presence 
throughout the region. Forward-stationed U.S. forces are one of the 
most important ways to signal U.S. political commitment to the region. 
The political and military value of forward presence is enormous. U.S. 
military presence serves as a stabilizing force in the region, helping 
to deter conflict on the Korean Peninsula and manage crises from the 
South China Sea through the Indian Ocean. Forward presence provides 
opportunities for partnership, interoperating, training, and exercising 
with allies and partners that U.S.-based forces cannot support. We 
recommend continuing to implement and resource key posture initiatives; 
increasing surface fleet presence; improving undersea capacity; 
deploying additional amphibious lift; continuing to diversify air 
operating locations; bolstering regional missile defenses; advancing 
and adapting the U.S. Army's Regionally Aligned Forces concept; 
addressing logistical challenges; stockpiling critical precision 
munitions; and enhancing intelligence, surveillance, and reconnaissance 
cooperation with allies.
    Fourth, the United States should accelerate development of 
innovative capabilities and concepts. We identified capability gaps in 
two types of areas. First are those capabilities required to offset an 
emerging risk to U.S. forces, such as the growing ballistic missile 
risk to U.S. ships and forward bases. Second are those capabilities 
that the United States could develop to provide an asymmetric counter 
to potential regional competitors. Both will be needed for the U.S. 
military to retain a resilient forward presence and the ability to 
project combat power in the Asia-Pacific, despite competitors' efforts 
to constrain U.S. leaders by increasing the risk to U.S. forces. 
Existing concepts and capabilities must be updated to ensure that the 
future force is capable of deterring and prevailing in potential 
conflicts. China's development of anti-access/area-denial capabilities 
aims to restrict U.S., ally, and partner freedom of maneuver. To 
overcome this challenge, the United States is developing new concepts 
of operation and next-generation capabilities. However, the security 
environment is highly dynamic and will require a culture of 
adaptability, a willingness to try new approaches and risk failure 
through experimentation, and the ability to move rapidly from concept 
to acquisition. We recommend institutionalizing a culture of 
experimentation; encouraging rapid platform evolution; developing 
advanced long-range missiles; funding innovative missile defense 
concepts; fielding additional air combat systems; exploiting the U.S. 
undersea advantage; and augmenting space, cyber, and electronic warfare 
capabilities.
    Many of the efforts described above would require additional 
resources, as we describe in more detail in the full report. If the 
United States is to protect its interests in Asia, then meeting these 
resource challenges should be a top priority for U.S. leaders, both in 
the administration and in Congress.
                               conclusion
    The initiatives outlined above are focused on the defense portion 
of the rebalance, as directed by Section 1059 of the 2015 National 
Defense Authorization Act. However, additional effort is needed not 
just on the defense component of the rebalance, but on the prosperity 
and values aspects as well. Passing the Trans-Pacific Partnership, for 
example, is an economic initiative but is vital to regional security, 
as well as prosperity. Strengthening the rebalance to Asia will require 
that Washington use all the tools at its disposal if the United States 
and its allies and partners are to maintain a secure, peaceful, 
prosperous, and free Asia-Pacific region.

    Chairman McCain. Thank you.
    General?

STATEMENT OF LIEUTENANT GENERAL THOMAS L. CONANT, USMC (RET.), 
     FORMER DEPUTY COMMANDER, UNITED STATES PACIFIC COMMAND

    General Conant. Senator McCain, Senator Reed, and members, 
thank you for allowing us to come here to talk to you.
    My message is simple, as it says in the report. I am a 
strong believer that there is a strategic imperative, that we 
have a very clear and concise message to our partners and 
allies and to the world on what the rebalance really means. I 
think that strategy and that message needs to be consistent in 
its vision and in its articulation across the whole of 
government.
    And then I think you need that continuous engagement with 
allies and partners throughout the region to reassure them that 
we are there for them, and that the rebalance is, in reality, a 
fact.
    From the defense side of the house, Chairman, I think we 
will see new concepts we will have to look at as we study this 
problem set that China has presented to us.
    You will see more distributed operations, dispersal of 
forces, and such. Long-range strike in both weapons and 
platforms will become an imperative.
    And then I think there will be the proper investment in 
both naval platforms and air platforms, not to include Army.
    So there is a lot to discuss, and I look forward to your 
questions, sir, instead of me just carrying on. So thank you so 
much.
    Chairman McCain. Thank you very much. I thank the 
witnesses.
    In your report you say, ``The Obama administration has not 
articulated a clear, coherent, or consistent rebalance 
strategy, particularly when it comes to managing China's 
rise.''
    It seems to me that we have, in this behavior of China, an 
opportunity to strengthen our relationships with other nations 
in the region--Philippines, Vietnam, in particular--that would 
not have been thought of in some years past. What steps do we 
need to take to take advantage of this new deep concern that 
the Pacific Region, nations in the region, have concerning 
China, Dr. Green?
    Dr. Green. We have done a survey, Senator, at CSIS of 
elites in 10 Asian countries several times over the past 5 
years. And it is remarkable how much strategic thinkers, 
political leaders, from Vietnam to India to Japan, want more of 
us. They want more cooperation. They want more exercises. They 
want more trade agreements. They do not want bases. They do not 
want bases, in most cases. But they are willing to accept new 
arrangements.
    Chairman McCain. Like the Australia arrangement.
    Dr. Green. Like the Australia arrangement, where we rotate 
Marines through Darwin, where we will, if we can move the 
negotiations forward, have access to Royal Australian Air Force 
airfields. In the Philippines, where the Enhanced Defense 
Cooperation Agreement has passed the Supreme Court test, we 
will be able to move people through, that kind of thing. Cam 
Ranh Bay, perhaps, in Vietnam, that is an opportunity.
    We suffer a bit, in my view, Senator, because the way we 
articulate our vision of the future of Asia has been quite 
inconsistent. At times, senior administration officials have 
embraced Chinese leader Xi Jinping's vision of what he calls a 
new model of great power relations, which is designed to 
stabilize U.S.-China relations, but to do so by recognizing 
that China and the United States and Russia are great powers 
that should settle the affairs of Asia.
    And we at various points at senior levels have said we 
embrace that idea, and we want to operationalize that idea. The 
fundamental flaw, from our perspective, should be this new 
model of great powers does not include great democracies like 
Japan, India, Australia, Korea, Indonesia as great powers. They 
are considered second-tier.
    So the way we have talked about how we see order in Asia, 
the relations, has sent confused signals. We need to get that 
straight.
    We also should be realistic that while we are getting more 
access and more cooperation with the Philippines, with Vietnam, 
with Malaysia, these are all systems where political leadership 
could change. In Vietnam, there was just a change. The 
Philippines have an election.
    So we need to be patient, and we need to be in this for the 
long game. And we need to build it on professional 
relationships between the militaries.
    It may not always be us, in a case like Vietnam. It may be 
Japan or Korea, which are providing patrol boats that take the 
lead in helping build capacity. But we all have the same 
interests.
    So we, in the report, suggest we need a venue or a 
framework with our allies and partners to make sure that we are 
all helping these states, irrespective of how our specific 
bilateral relations with them or leadership changes affect our 
expectations.
    Chairman McCain. I am very interested in your 
recommendation about a second carrier to Japan. We are sending 
our carriers from the West Coast on 10-month deployments. That 
is too long to in any way maintain a sustainable all-volunteer 
force.
    But one of the sources of frustration for me and other 
members of this committee is the situation in Okinawa and the 
relocation. Talk about fits and starts and setbacks and 
political problems in Okinawa itself. It is one of the more 
difficult issues, but yet, I think one of the most important.
    What is the witnesses' latest assessment of that situation?
    Dr. Green. We have spent a lot of time on this issue, 
Senator, in 2012 and in this report. My colleague Nick 
Szechenyi spent time in Okinawa, talking to local political 
officials. We did meet with the governor of Okinawa, as you 
did, sir.
    It is complicated. The Okinawan people suffered in the 
Second World War like no other Japanese in that terrible 
battle. But it is not as black and white as it often appears in 
the media.
    Prime Minister Abe has committed to moving forward with the 
Futenma Replacement Facility. His chief cabinet secretary, Mr. 
Suga, is working this strenuously. He is responsible for a 
whole host of issues, but he is focused on this. And they are 
committed. It is in Japan's national interests, and it is in 
their political interests, to move forward on this.
    The mayoral election in Ginowan, the town closest to the 
current Marine Corps Air Station, resulted in a victory for 
someone who supports moving forward.
    It will not be easy, but I think--and this is based on 
detailed looks at the operational questions but also the local 
politics--this is the best of a lot of hard options. And I 
think, and we agreed in our group unanimously, we need to move 
forward.
    We also, frankly, need to remember that that are other 
airfields in Okinawa. They may not provide the solution for the 
Marine's requirements, but as we look at the A2/AD threat and 
the ballistic missile threat and the increasing requirements 
for humanitarian disaster relief, we ought to be working with 
Japan's defense forces.
    And that is an important development, by the way, Senator. 
The Japan Self-Defense Forces were viewed very negatively in 
Okinawa after the war, because of what the Imperial Japanese 
Army did to them. That has changed significantly. There is 
considerable pride and support for Japan Self-Defense Forces in 
Okinawa.
    So we ought to, in the longer term, be looking at joint use 
of bases. The Ground Self-Defense Force wants to create a 
marine corps capability. And General Conant can speak to this. 
We can co-locate with them.
    In other words, we can give Japan more ownership of these 
bases and build more support, I think, as we go forward.
    General Conant. Sir, thank you for that question.
    I think, looking at the carrier, we just do not need to 
restrict ourselves to Japan. There other places you could 
possibly put it, whether it is Guam, whether it is back in 
Hawaii, whether it is even in Australia, in Perth. There are 
ways to look at the situation.
    It is easiest to go to Japan, because the infrastructure is 
there, and so the investment and the additional investment for 
the Navy probably carries the day on that.
    As you look, the A2/AD and the ballistic and cruise missile 
threat out of an adversary, then you are already under that 
umbrella if you are stationed that far forward in Japan. So 
depending on the strategic messaging you want to send, we could 
look and possibly look at putting it someplace else.
    Chairman McCain. Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Dr. Green, I noticed that when you were talking, in your 
comments, you described our undersea assets as the trump card. 
I think, for the record, you were making a gambling allusion, 
not a political allusion.
    But I think there are several factors here, and you both 
have talked about it, is the increased precision strike 
capability of Chinese forces from land-based and other bases, 
which makes surface ships much more vulnerable. They would have 
to launch, in the case of a carrier, from much further away. 
Submarines do not have those particular vulnerabilities. Also, 
just in terms of technology, we have a significant advantage 
over what we are seeing right now in the waters with the 
Chinese and others.
    So I would assume that, for that reason, we want to make a 
much more vigorous investment in deployment of undersea assets 
into this area. That could be the leading-edge of the sword. Is 
that fair?
    Dr. Green. Senator, that is right. We have an advantage 
undersea, over any potential adversary, that is considerable. 
And if you add into the mix the really first-class undersea 
capabilities of Japan's Maritime Self-Defense Forces and the 
Royal Australian Navy, and increasingly the Indian Navy, that 
is a pretty strong undersea net around the entire Indo-Asia-
Pacific, which would cause any potential adversary pause, if 
they thought about challenging us in a serious military way.
    So we thought it was very, very important. And one of the 
areas we need to focus on more is interoperability with these 
other navies, one more reason why our group thought discussions 
between Japan and Australia about not only a common platform 
but also increasing cooperation is the kind of development we 
should want to see.
    Senator Reed. General Conant, any comments?
    General Conant. Yes, sir. In my time as deputy commander at 
PACOM as a Marine, I found out the significance of what that 
submarine force provided for us. In so many other things that 
we can't talk about in open source, but really, in its 
capability sets in ISR [intelligence, surveillance, and 
reconnaissance] and just discovering what is going on.
    It is also a way to send a message to those who want to 
threaten our access in the region that there is a cost to that 
activity, if somebody chooses to bring it to conflict.
    That submarine force is very, very capable. And if I had 
one more marginal dollar, and you weren't going to spend it 
anywhere else, as a Marine, I would probably put it in the 
submarine force, sir.
    Senator Reed. Thank you, sir.
    One other aspect of this, and I think it is implicit in 
your report, is that, most likely, if we are engaged in a 
serious confrontation in the area, that the cyber activity 
would be so extensive that we will be operating literally in 
the dark. GPS [Global Positioning System] will go down. Systems 
on aircraft and surface ships, everything, will be operating 
almost as we were 50, 100 years ago.
    Is that realistic, General? Or is that sort of more 
apocalyptic?
    General Conant. No, that is a very good assessment.
    In fact, when we were out at PACOM talking with Admiral 
Locklear one day, I thought we ought to do a Nimitz project. 
Admiral Nimitz fought World War II with about a 65-man staff 
that grew to 200-some. And he thought it grew too big.
    What they did is they provided specific mission guides, 
mission orders, and then sent them out on task forces. I think 
you would have to get something like that, where you could 
have, within the task force, internally assured mission sets 
through some classified work. But then you wouldn't be beholden 
to the GPS and some other things. But space will become a new 
issue and then navigation.
    So it is a good way to think about it, but I don't think 
just cyber alone, it is hard for all of us to understand, even 
at my level, what it can do and what it won't do. And then you 
are into law and policy.
    But they don't care. They will shut us down quickly, sir.
    Senator Reed. Thank you very much.
    Dr. Green, in the report, you talked about the relationship 
between China and North Korea. And there have been some reports 
that the Chinese are willing to tolerate a nuclear-armed North 
Korea to a certain degree, which is very dangerous to the 
world, given the instability in that government.
    And the other aspect, and this is a real question, not a 
rhetorical, is that any sort of effective solution, I would 
assume, would have to take the United States and the Chinese 
together to be able to bring the appropriate political and 
diplomatic influence on the North Koreans to behave better. Is 
that fair? And what is your sense of the whole issue?
    Dr. Green. Sir, I would agree that an ultimate resolution--
and I worked on the North Korea problem in the previous 
administration and spent time in Pyongyang and Beijing, and 
frankly, came away very pessimistic about any near-, medium-, 
and maybe even long-term diplomatic solution.
    But ultimately, if we are going to denuclearize the 
peninsula, we are going to need to do it with our allies first, 
but with China and Russia. And if we have a sudden or 
cataclysmic collapse of the North Korean state, which is 
feasible, is possible, at a minimum, we are going to want to 
deconflict with China. So it is very important.
    But we have not had much success. When I was in the 
previous administration, we kind of bullied the Chinese into 
helping us in the six-party talks. And we thought we were 
making progress and that China would be helpful. But frankly, 
the Chinese have an interest in a denuclearized peninsula, but 
it is, I think, becoming evident that they have a greater 
interest in stability and in maintaining a dominant position 
over the peninsula in the long term.
    So I believe they will tolerate a nuclear program in North 
Korea, so long as it is not destabilizing the whole region. And 
then they can settle it when, in their view, they have greater 
strategic purchase, greater influence.
    Our approach generally has been to respond to these North 
Korean nuclear tests and missile tests in the Security Council 
and try to get consensus with China. And I think this most 
recent test, and China's rather anemic reaction, demonstrates 
that that is not an approach that is going to get us results.
    And the other approach would be to do more with our allies 
to make it evident that we will increase our missile defense 
capabilities, we will increase the joint operations, and all of 
these things which are necessary because of the North Korean 
threat, and that from Beijing's perspective their nonaction 
will have consequences. As we take care of ourselves and our 
allies, they may not like--we need to think about how we 
incentivize the Chinese beyond trying to point out their 
interests in denuclearization at this point.
    Senator Reed. Thank you very much, gentlemen. Thank you.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Dr. Green, in your testimony, you recommend fielding 
additional air combat systems as a means to counter China's 
increasing A2/AD capabilities. Specifically, you state in your 
abridged report that developing a fleet of next-generation 
aircraft with the right combination of capabilities will be 
critical to prevailing in a major conflict against a peer 
competitor.
    Does our fleet of fifth-generation fighter aircraft, 
specifically the number of operational F-22s, currently meet 
the need? And I think we are probably being optimistic if we 
say we can anticipate 140 of those aircraft in a reasonable 
time frame.
    Does that meet our need today? And if not, what would our 
need be? And is this the right question, in terms of the F-22 
being part of that solution?
    Dr. Green. Senator, General Conant should speak to this as 
well.
    The F-22 and the F-35 have had various challenges as 
programs, but talking to our allies, talking to the air 
component commander's on our side in the Pacific, it is pretty 
clear to me what we do get for this, and it is significant.
    We do not just get a squadron of F-22s or F-35s. We get 
stealthy platforms that can coordinate fourth-generation 
aircraft. It is a multiplier effect that, frankly, when I went 
out and talked to people, was not coming from the generals, 
with all respect to the generals. It was coming from captains 
and majors innovating with this new platform. And this is what 
the Royal Australian Air Force, the Koreans, and the Japanese 
are starting to discover as well. So there is a multiplier 
effect we have to consider, and then the interoperability and 
jointness effect among our allies.
    The next generation, meaning the sixth, seventh generation, 
and I defer to General Conant on this, may not be manned, 
ultimately. But for what we have in the fifth generation, we 
get a lot.
    If I had a concern, and Admiral Harris, the Pacific 
commander spoke to this, our platforms are stealthy, they are 
excellent. But our air-to-air missiles, our surface-to-surface 
missiles, do not have the range that the Chinese, with much 
less capable platforms, increasingly are fielding to hit us.
    So that is one of the capability gaps that I think needs 
near-term addressing.
    General Conant. Senator Rounds, good question.
    The F-22 or the F-35 as a fifth-generation fighter is very 
capable. But it is not the end-all and be-all, as Dr. Green 
alluded to.
    When I was at 3rd MAW [Marine Aircraft Wing], we had an 
exercise where we brought F-22s out and worked with our F/A-18A 
Pluses and Cs, a fourth-generation legacy airplane. And we had 
the capability to share that picture that F-22 presented.
    What those majors and what those captains did with those 
packages, once they got wiped out by just trying to fight the 
F-22, they then went into a strike package type training 
scenario. It was phenomenal.
    And I am a stronger believer that you do not have to put 
all your eggs in one basket. In fact, we have kind of gone down 
the road where we really are almost doing that.
    So F-22s have tremendous capability. Nothing else can match 
it. The F-35s are great.
    But we have fourth-generation fighters we can do things 
with that give more respectful numbers that you are going to 
need out in this problem set. And then there is a value of 
quantity to this problem set, and China sees that. So they are 
sticking with four and four-plus gen. But they are very, very 
capable.
    So it all doesn't have to be fifth gen, sir, but it is part 
of the mix.
    Senator Rounds. What role do you see long-range strike 
systems, the LRS-B [Long-Range Strike Bomber], as an example, 
that particular bomber? How do you see that playing into the 
U.S. defense strategy in Asia in the coming years?
    General Conant. As we wargame various scenarios, and as we 
look at the ballistic and cruise missile threat out there, as I 
said on the Defense Science Board for that task force, you are 
going to need long-range strike. And you ought to have the 
capable platform that brings that strike in.
    We have always done, as Dr. Green alluded to, fifth-
generation fighters with fourth- and third-generation weapons. 
So we need to match that capability and the platform with a 
weapon system.
    As you look at long-range strike, it is not just the 
airframes. Our SAGs, surface action groups, need that long-
range strike capability also. We are putting it on submarines.
    So that creates a bigger problem set for the adversary and 
gives you more decision space, if you do come up into a problem 
set, sir.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    The stability in the Asia-Pacific area is hugely important. 
And the U.S. role in being a part of creating the stability is 
critical. We have articulated our commitment as rebalance--and 
yes, I agree that it would be helpful to have a much clear 
articulation of this. But a lot of what we talk about in 
rebalance is in the implementation. Part of our rebalance 
strategy, as implemented, is in our force posture.
    So I did want to ask you a little bit more about your 
suggestion that we should consider deploying a second carrier 
in that area, and also mentioned by the chairman.
    So, for example, if we wanted to locate a second carrier at 
Yokosuka, which already has infrastructure, is there a time 
frame when it would be most advantageous for us to pursue a 
study and come to a decision, i.e., while Prime Minister Abe is 
still in office? Can you talk a little bit more about the time 
frame for locating a second carrier in the Pacific?
    Dr. Green. There is a saying in Japanese politics, because 
they have a parliamentary system, so you can have an election 
at any moment, that one step ahead is darkness.
    But Prime Minister Abe, or if not Prime Minister Abe, 
someone with a comparable commitment to our alliance, is likely 
to be in power for some time. The year 2019 is something of a 
date, because that is when the USS Gerald Ford will be ready 
for deployment. It seems to me that would be the opportunity.
    Now, we did not come out with a hard recommendation on 
this, because there are operational questions and costs and 
infrastructure questions. If you deployed this new carrier in 
Yokosuka, you would have to find a place for the air wing. 
Iwakuni, which handles the air wing now, could probably 
expanded. But that is a political lift for the Japanese 
Government, questions of host nation support.
    But when we put this suggestion out, it got covered in the 
Japanese press, and there was not a lot of pushback. A number 
of senior officials and military officers in Japan were quite 
intrigued, because of the signal it sends and the firepower it 
provides.
    And it addresses a concern our allies have, which is the 
Seventh Fleet's one carrier is out of the Pacific, or PACOM AOR 
[area of responsibility], a lot, and they watch that. So they 
would have constant coverage, in their view, in an increasingly 
difficult region.
    But 2019 and the USS Gerald Ford, that is a heavy lift for 
Japanese politics. It would have to be Japan's decision.
    I was in the White House when we asked Japan to take the 
George Washington, the first nuclear carrier. Everyone said 
they would never do it. They needed and wanted that firepower, 
that commitment, that connectivity with us.
    I think it is politically feasible, and 2019 would be the 
target date, I would think.
    Senator Hirono. So we should move ahead with a study, so 
that we can make the decision in an appropriate time frame.
    I think the Japanese are well aware of the changing 
environment with North Korea and China.
    Dr. Green, can you talk more about your suggestion that we 
should form an Asia-Pacific observers group? I am not familiar 
with where that suggestion is coming from. And what would it do 
to enhance the rebalance implementation?
    Dr. Green. This was John Hamre, the president of CSIS, my 
boss, his idea. Of course, as you know, he worked for this 
committee for a long time and in the Pentagon. He suggested it 
after looking at the problem of articulating our strategy to 
the Congress, to our allies. And I think, for him, the 
comparable group that monitored arms control negotiations in 
the Reagan administration, bipartisan, was the model.
    But I would offer another model, Senator, in all sincerity, 
and that is a great Senator from Hawaii, who, with Ted Stevens 
from Alaska, Senator Inouye, provided constant oversight of our 
strategy in Asia. I was in the White House for 5 years, and 
when the Inouye-Stevens combination went out to the region, it 
was like another aircraft carrier. I mean, it was quite 
powerful.
    So both in terms of monitoring and coordinating in 
Washington, but also as a bipartisan group that could speak to 
the region, not always about reassuring about our commitment, 
but telling sometimes our friends and allies what they have to 
do.
    Senator Hirono. And this would not require legislation.
    Dr. Green. No.
    Senator Hirono. So my time is almost up, but I did want to 
ask you, as we look 10 to 20 years in the future, what would a 
successful rebalance look like in this region?
    Maybe you can think on it and respond to me in writing.
    Dr. Green. No, I would be happy to do that, Senator. We 
have thought about it. We were tasked with----
    Senator Hirono. Senator McCain, would it be all right for 
him to respond now?
    Chairman McCain. Absolutely.
    Dr. Green. I apologize.
    Our tasking was to look out 10 years, so we took that 
seriously and considered this. I think my colleagues at CSIS, 
and I think I will speak also for our senior advisory review 
board, would say that the friction we have with China right now 
over the South China Sea and the East China Sea is not going to 
go away, that we are going to probably be living with this for 
5 or 10 years, because it is built into the PLA's [People's 
Liberation Army] operational concept, their force structure 
building, their doctrine. And the Foreign Ministry or others in 
the China system are not going to knock them off of that 
trajectory. And in my view, that is true whether the Chinese 
economy slows down or not.
    So in 10 years and for the next 10 years, we will have some 
friction in our relationship with China, and we should know 
that, and we should not be afraid of it. We need to manage it. 
But in 10 years, if we have a relationship with our allies and 
partners, not a collective security arrangement like NATO 
[North Atlantic Treaty Organization], almost no one wants that. 
And that is a bit too much for China. That would produce a 
China we do not want. But the kind of network and cooperation 
that incentivizes China to play within the rules; and the kind 
of capacity-building for the Philippines and for smaller micro 
states, CNMI [the Commonwealth of the Northern Mariana Islands] 
and so forth, where they can handle earthquakes and tsunamis or 
internal corruption problems in a way where they are not 
vulnerable strategically; and where we have, frankly, a trade 
agreement, the TPP plus the regional agreements, fusing toward 
more of a rules-based open Pacific order--I think that is what 
we should be thinking about. And if we do think in those terms, 
I think it will add some discipline to how the administration 
and others articulate our strategy, what we are aiming for. We 
are not containing China. We are looking for a rules-based 
order, and here is how it might look in terms of our relations 
with allies and other partners.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    And thank you both for your service.
    If I may ask you this, Dr. Green, your report assesses that 
Chinese President Xi Jinping has a less awestruck view of the 
U.S. power than his predecessors, contributing to a greater 
tolerance for risk and a reduction of emphasis on the China-
U.S. relations.
    So I would ask, that is a pretty striking observation. What 
do you think has led to his diminished view of U.S. power? And 
what do you think it will take to alter his views?
    Dr. Green. Xi Jinping is the first Chinese leader since 
Deng Xiaoping who is not, as the Chinese say, helicoptered, 
picked up personally by Deng Xiaoping and groomed for 
leadership. So he is not beholden to the Deng Xiaoping vision 
of relations with the U.S., which was competitive but one where 
China dampens down any sense of competition as much as possible 
in order to focus on economic development, ending the Cold War 
to balance the Soviet threat to China.
    He is unconstrained by that, because of his independence 
from being groomed and brought up by Xiaoping. That is one 
factor.
    The other factor is that I think the financial crisis in 
2008 and 2009 led a lot of Chinese observers to conclude that 
America's best days were over, and that there was going to be a 
pretty fundamental shift. They are probably rethinking that 
now, but that set this----
    Senator Manchin. That sets me up for the following question 
then. Does China's economic slowdown affect its regional 
military capabilities?
    And also, should the U.S. rebalance strategies take into 
account lower Chinese economic growth? Should we be considering 
what they were thinking of us in 2007, 2008, 2009? Should we be 
thinking that same type of thought process now, since they are 
having a reversal?
    Dr. Green. It is an excellent question, Senator. It is an 
interesting one to contemplate. We should learn from the 
Chinese mistake underestimating American wherewithal and not 
assume that the nature of Chinese rule in Asia will 
dramatically change.
    Senator Manchin. You believe that they are going to double 
down, just as Russia might be doubling down, even at the 
expense of their own people?
    Dr. Green. I think there is a debate among experts about 
whether China's increased aggressiveness and their military 
modernization reflects their economy or reflects a more 
fundamental definition of interests. I think it is the latter.
    Even if we are talking about a China growing at 3 percent 
or 4 percent, that is a huge economy. Those are a lot of 
resources. It absolutely dwarfs anybody in the region, except 
us and Japan. And it changes the trajectory, but I do not think 
it minimizes the complication for us in any way that would lead 
us to change our strategy.
    We may want to change the way we think about U.S.-China 
relations in economic terms. But in terms of creating a 
military presence capability and alliances and partnerships----
    Senator Manchin. We should be----
    Dr. Green. We should be doing what we are doing.
    It could be that you have a more humble China in 5 years. 
It could be. You could also have a China that is more 
nationalistic and grumpy.
    But in terms of their capabilities, I do not think the 
trajectory changes all that much.
    Senator Manchin. Let me follow up with General Conant.
    General, your report notes that most military, economic, 
and diplomatic conditions favor a future Russia strategic 
alignment with China, but that Russia is ultimately likely to 
seek a balance between collaborating with and hedging against 
China.
    So I would ask, what concrete Russian or Chinese interests 
stand in the way of a strategic alliance?
    General Conant. Sir, from my personal experience, I think 
there is still mistrust between the two powers. But they are 
working closer together than they have ever worked before. And 
they are starting to do exchanges.
    To follow up what Dr. Green, a little bit, thought on this 
slowdown on the growth of China, we know they had a target at 
10 percent, went down to 9.5 percent, went down to 9 percent. I 
was once told that if they could not grow at 9 percent, then 
they thought they would have internal problems.
    Now they are down to 7 percent, 7.5 percent. But you still 
see them, even in their maritime and military buildup of what 
we would call a coast guard, they are building larger ships. 
They are arming those ships. And they are building fourth-
generation fighters. They have a series of five to six new 
fighters, new ships.
    So I do not see it slowing down. They may worry about what 
the people think, but that Politburo of seven people answers to 
nobody but the party.
    Senator Manchin. If this alignment would take effect, the 
alignment between Russia and China would take effect, even 
though there was distrust there, but let's say that it moves in 
a different way economically but militarily that they basically 
start teaming up, if you will, what action should the United 
States undertake basically in security, economic, or diplomatic 
realms to affect the likelihood of that?
    General Conant. Well, I think you have to have a dialogue, 
first of all, of why that alignment is necessary.
    Senator Manchin. Following up really quick--and I know my 
time is up, Mr. Chairman, if I may. Following up, what type of 
dialogue do we have basically on the military aspects between 
Russia and China, between the U.S.? What would you say, how 
those relationships----
    General Conant. Well, between Russia and China, we have 
very little.
    Senator Manchin. We, the country?
    General Conant. We. So when I was deputy, to have the 
Russian engagement, I had to go to Stuttgart, and we were going 
to have the EUCOM lead to the Russian piece.
    Senator Manchin. Okay.
    General Conant. So together, though, we could build that 
discussion and bring that into the China realm.
    Senator Manchin. Right now, we have very little 
interaction.
    General Conant. I am not current enough to try to make a 
statement for Admiral Harris, sir.
    Senator Manchin. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here. Dr. Green, General, 
thank you.
    I would like to ask you just a couple things about 
advancing and adapting the U.S. Army's regionally aligned 
forces concept, particularly as it relates to our Army Reserve 
and National Guard forces, and if you could talk a little bit 
about the State Partnership Program and how that could be 
usefully employed in that region.
    Iowa is a member of the State Partnership Program. We are 
partnered with Kosovo through EUCOM. I think there are 22 
partnerships in EUCOM. There are 22 with SOUTHCOM [United 
States Southern Command]. But there are only eight with PACOM.
    So if you could talk through that, how that might be 
beneficial, employing those forces and developing those 
partnerships, I would appreciate that.
    Dr. Green. We think there is an enormous opportunity for 
the State National Guard components to play in the rebalance. 
The Army's Pacific Pathways program is quite welcome in the 
region.
    The challenge is that most countries in Asia cannot handle 
a Stryker brigade or the kind of unit that the brigade 
formations of the big Army is built around.
    We were also struck, Senator, that only eight of the State 
partnerships are in the Pacific, which over half of Americans 
now consistently say in polls that Asia is the most important 
region to our future. That is not just Hawaii and California. 
That is the entire Republic.
    Now the Army tells us they cannot decide who does State 
partnerships, but it makes sense that National Guard units do 
more.
    There is another reason, which is there are some quite 
close sister city relationships. I think Haiphong in Vietnam, 
for example, with I think Seattle, if I remember correctly. 
These cities are doing disaster preparedness exercises, 
continuity of government.
    It seems to me there is a logical role for the Guard to 
play in these exercises, and it is not expensive. It is not a 
large-scale thing. And it has multiple benefits for us, among 
them, showing some of these countries that are transitioning 
toward a more democratic system how civil-military relations in 
a democracy should work.
    So I hope, of the recommendations that we looked at, that 
there is interest in that one, because there is enormous 
opportunity and real synergies with the region and between the 
Guard and local and municipal governments.
    Senator Ernst. General, do you have any thoughts?
    General Conant. Yes, ma'am.
    First of all, I think when we did the Tonga State 
partnership with Admiral Locklear, that was over 1.5 years just 
to get through the wickets, whatever those wickets are.
    Senator Ernst. Right.
    General Conant. I think it is kind of a political football 
between the Department of State, Army, and Guard. But the 
benefit to those State partnerships are tremendous, and it 
gives a cultural awareness for that State partnership, and the 
training aspect is that even the smaller countries focus on 
small unit leadership.
    It does not take a lot to make a big impact. So I am a big 
proponent of it. When we first looked at it with Admiral 
Locklear, we found these small numbers not aligned. Europe has 
been the most beneficiary of that.
    So we ought to somehow figure out how to bring more into 
the Pacific at the pace and at the level those countries 
desire.
    Senator Ernst. That is fantastic. I am a huge proponent of 
the State Partnership Program. And we have hosted many 
Kosovars, young NCOs [non-commissioned officers] and officers, 
with our soldiers in the Iowa Army National Guard. It has been 
a great benefit to both countries, as well. And sister cities, 
we also have a sister city program now that came out of State 
Partnership, because of our great relationship.
    And I will tell you, Mr. Chairman, just this last Friday, 
we opened the first consulate in the State of Iowa in Des 
Moines, Iowa. That consulate is the Republic of Kosovo 
consulate.
    So there are many great things happening through the State 
Partnership Program. I do hope that we are able to project more 
of those into the Pacific region.
    So thank you very much, gentlemen.
    Thank you, Mr. Chair.
    Chairman McCain. Is this to send ethanol to Kosovo? Pretty 
much?
    [Laughter.]
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses. I have two lines of questions 
for you.
    The first deals with the U.S.-India relationship going 
forward. Senator King and I visited India in October 2014 and 
had dialogue in a number of areas, but including the mil-to-mil 
cooperation and opportunities under the government, which is 
not connected to sort of the nonalignment tradition that had 
been an Indian tradition.
    We saw some real opportunities. We visited the shipyard at 
Mazagon Docks in Mumbai and saw the shipbuilding expertise in 
India and encouraged them to come visit the United States. 
There has been a recent delegation of Indian military officials 
to see our shipbuilding capacity.
    And we were also told by the Indians that they do more 
joint military exercises with the United States than with any 
other Nation.
    Talk a little bit about that relationship and what you 
could realistically predict going forward 10 years or beyond, 
and how that would be helpful in our posture in the region.
    Dr. Green. I was in the Bush administration, and I had 
responsibly in the NSC [National Security Council] for India, 
and the bipartisan and continuous support for building this 
relationship is a very positive thing for our country.
    As you mentioned, Senator, there is still this nonalignment 
tradition in the Ministry of External Affairs, but it is not 
growing. It is receding. Public opinion polls about the U.S. 
and India are very, very positive. As you said, we do more 
exercises with India than India does with the whole rest of the 
world combined.
    We also sell a lot of stuff. People forget we lost the 
fighter competition, but we sell a lot of things to India.
    A 10-year vision, I think, would include regular Malabar 
exercises that would include the Indian Navy but also Japan, 
Singapore, Australia, maybe China or others. Depending on the 
exercise, you can do these in sequence and have different kinds 
of exercises. We do more of that.
    In our commercial or defense-industrial relationship, I 
think there is potential for ASW [anti-submarine warfare] 
patrol, maybe even submarines. Ten years from now, I wouldn't 
erase that. But it is not going to be a U.S. nuclear attack 
sub. It is going to be some version of a Japanese or Australian 
sub where maybe we help with the integration of the weapon 
systems. So there is an industrial part.
    One of the most difficult parts of the relationship has 
been the intelligence relationship, which is the lifeblood of 
any alliance or partnership. And that is moving in a good 
direction, too.
    So a sustained by partition commitment to the relationship 
is good. I would say, of all the aspects of U.S.-India 
relations, the defense component now is moving forward with the 
most speed. Nothing is fast in India, but with the most speed, 
in that context.
    Senator Kaine. General?
    General Conant. Yes, sir. I think they are an important 
strategic ally and partner.
    We were told to kind of go at them and try to find a better 
way for cooperation. When I was at PACOM, we were getting 
there. They like a shared coproduction aspect in anything you 
want to sell them or produce. I do not think we should be 
afraid of that.
    Senator Kaine. Right.
    General Conant. I think we ought to look at that.
    And then you get in the acquisition world. That needs a 
little with reforming.
    I was just reading today, the CEO [chief executive officer] 
of Boeing is out there, posturing maybe a coproduction with the 
F/A-18E/F. The more we could share in that, the more we could 
get to that.
    Now, the multilateral exercises, the only way you will be 
successful in any multilateral activity is having a very strong 
bilateral relationship with those multilateral partners. So I 
used to tell the PACOM staff, make sure we are square U.S. to 
India before we go U.S. to India to Japan to Australia or 
anybody else, planning that. And make sure we are answering 
their concerns and assuaging their fears of how we are going to 
do the exercise.
    Senator Kaine. Great.
    General Conant. So you listen more. So that is a key point.
    When you say multilateral, as Dr. Green said, there is a 
steppingstone to that process.
    Senator Kaine. The second question is, would it be valuable 
if the Senate ratified the Law of the Sea Convention, again, in 
terms of our posture in the region?
    Dr. Green. It would, on balance. And many of our allies and 
partners--our closest allies and partners in the region are 
asking us to ratify.
    In my own personal view, though, the fact that we have not 
ratified UNCLOS [United Nations Convention on the Law of the 
Sea] is often exaggerated as an obstacle to progress on these 
disputes in the South China Sea and so forth. We, the United 
States Government, the Navy, basically abide by the convention 
based on previous conventions and our practice and doctrine and 
policies.
    And the real problem, ultimately, is not that we have not 
ratified it. The real problem is that China, which says that it 
has, defines it in a way that is completely alien to the spirit 
of the convention and the understanding of all the other 
parties. I am not sure our ratifying----
    Senator Kaine. Do we have standing to critique them on 
that, if we have not ratified?
    Dr. Green. It gives them a talking point to throwback at 
us.
    Senator Kaine. Yes.
    Dr. Green. Would ratifying change China's interpretation of 
UNCLOS? I am doubtful. But it would give us some more purchase. 
It would align us more with other allies and partners in the 
region who have ratified.
    Senator Kaine. Great. My time has expired.
    Thanks, Mr. Chair.
    And thank you.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General, Dr. Green, good to see you. I want to thank you 
for your great work that you have been doing, not only on this 
report, but for years. It is very much appreciated.
    One of the things about the Asia-Pacific--you mentioned it, 
Senator Hirono, earlier--a lot of us are, certainly, interested 
in it. My State is an Asia-Pacific State.
    And I think it is an opportunity, a rare one, to be honest, 
where you have the legislative branch supporting the executive 
branch on a major foreign policy strategy, the so-called pivot 
or rebalance to the Asia-Pacific. I think you see a lot of 
support in this committee for that.
    However, your report kind of makes it a little bit clear 
that that is not necessarily the most cogent strategy. How 
would you describe that strategy right now in one word?
    Dr. Green. The rebalance strategy?
    Senator Sullivan. Yes.
    Dr. Green. Well, if I were given one word, it would be 
``rebalance.'' That sounds like a copout.
    Senator Sullivan. It is.
    Dr. Green. Part of the problem with this articulation of 
the strategy is that rebalancing is a process. It is a ways, 
not an end. And I think what we have lacked in the articulation 
of the strategy is an articulation of the Asia-Pacific and the 
kinds of relationships that we are aiming for and what we will 
and will not tolerate.
    Senator Sullivan. How would you improve it, in particular, 
not just the strategy? Your report stated that the Obama 
administration has not articulated a clear, coherent, or 
consistent strategy for the region. So not just the strategy, 
but the FONOP [Freedom of Navigation Operation] issue, which I 
think many of us, again, bipartisan, are very interested in. We 
have encouraged the administration to get behind those as a 
regular occurrence, routine missions and operations with our 
allies, if possible.
    But in my discussions with some of our allies, there seems 
to be enormous confusion even on the articulation of what we 
are trying to do with those. How would you help improve that?
    Dr. Green. So we mentioned this in the report, Senator. The 
speeches by the senior-most officials in the administration 
articulate our priorities for the region differently every 
time. I think the Secretary of Defense and his predecessors 
have had the most consistent articulation. But there is not the 
kind of consistent explanation of our priorities that we need 
or that you had in previous administrations articulating our 
strategy towards the region.
    I mentioned this earlier, but we have, at the senior-most 
levels, embraced a vision that Xi Jinping put forward for a new 
model of great power relations, which is a great power of 
Russia, China, and the U.S. And our allies were unhappy, 
understandably.
    So how we have articulated this at the senior most levels, 
in terms of how we see the order and future of the region, 
keeps shifting. That is one problem.
    Also, I think, in the FONOPs, we do not have a story. I 
mean, the Australians, the Japanese, the Philippines, all our 
treaty allies wanted us to do freedom of navigation operations 
after this alarming Chinese reclamation and building of 
military spec airfields across the South China Sea. The first 
was near Subi island. It was at low-tide elevation. We did it 
as an innocent passage, because it was also within 12 nautical 
miles of island features. So that was confusing.
    The most recent one was more consistent, but ultimately, as 
the chairman articulated at the beginning of the hearing, 
ultimately, we need to demonstrate that we do not accept these 
new artificial island outposts as having any legitimacy in 
terms of territorial waters. And we need to do it consistently, 
and we need to make it appear we are not doing it reluctantly, 
because the first FONOP came after sort of Macbeth-like ``to do 
or not to do'' drama in the press.
    So we need to show how we view the region, why our values 
and allies are at the center of it; and second, that when 
order, freedom of navigation challenge are challenged, we don't 
break a sweat.
    Senator Sullivan. I am going to ask one final quick 
question.
    I appreciate that you have focused a lot in this report on 
the Arctic and the interests of different countries in the 
Arctic. And at the same time, we have done a lot on this 
committee, and there is a lot of interest from a lot of 
different Senators on the issues of the Arctic. We required DOD 
to have a plan for the Arctic in the NDAA.
    At the same time, as the President talked about 
strengthening our presence in the Asia-Pacific, they are 
looking at dramatically cutting our military forces, 
particularly our only airborne brigade combat team in the 
Arctic, in the entire Asia-Pacific.
    Do you think that our potential adversaries, whether it is 
the Koreans, whether it is the Russians, view that kind of 
cutback in a way that undermines the credibility of our focus 
on the rebalance, and also on our focus, late to the game, of 
course, on the Arctic where the Russians, as you mentioned in 
the report, are dramatically increasing their presence? And 
that is for both of you.
    General?
    Dr. Green. If I may start, General.
    When the President announced the rebalance in Australia in 
November 2011, it was well-received in the region. We have done 
polling where over 80 percent outside of China, over 80 percent 
of elites, welcome or would welcome a U.S. rebalance. There are 
questions about implementation, but the idea we are going to do 
this is important to them.
    In that speech in Australia, the President said that 
defense cuts will not, and he said, I repeat, will not, come at 
the expense of the Asia-Pacific region.
    So, technically, is the 425 part of PACOM? It is a little 
gray.
    Senator Sullivan. It is.
    Dr. Green. Will our allies see it as such? Yes.
    So this would be the first cut in the Pacific since the 
announcement of the rebalance.
    You mentioned the Arctic. There are growing uncertainties 
about the future of, frankly, not only the legal status and the 
exploitation of the Arctic but the security environment.
    So I saw that General Milley, in response to your question 
in his hearing, said he would need to look at operational 
requirements before force cuts. As we said in our report, that 
strikes us as the right sequence.
    Senator Sullivan. General?
    General Conant. I am more simple. The Army said they 
regionally aligned with the forces out of I Corps, that unit 
that comes out of I Corps, which means you have less capacity 
and capability for the Pacific.
    The airborne aspect of it, I have been up there in your 
State and visited them. It is very impressive.
    I am not one for giving it away because you just do not 
know when you might need it. I understand there might be a cost 
factor. But again, I go to that regional alignment that Army 
has dictated to the rebalance, and that is the I Corps and 
425th being part of that.
    I understand that we have gone the way with NORTHCOM, who 
owns Alaska and all that. But it is really the force should not 
be drawn down, because it is just paying another bill somewhere 
else. I would be interested in where that bill is being paid. 
Thank you.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman. Thank you for 
holding this hearing, another very valuable session in the 
development of strategic concepts and initiatives.
    And I want to thank both of you for being here and for your 
very, very important insights and information.
    I want to come back to undersea warfare that was raised by 
Senator Reed, because it is identified in the report as the 
area of our greatest asymmetric advantage right now, but only 
if we continue to invest in it. We have a technological edge, 
but the Chinese and Russians and others are seeking to catch 
us.
    So my question, Dr. Green, is, how should we target that 
investment to make sure we preserve and even enhance that 
advantage undersea?
    Dr. Green. Some of this, Senator, is in the classified 
report we provided. And I am certain that our colleagues would 
be happy to come and brief you on some of the specific ideas.
    Senator Blumenthal. I would welcome that.
    Dr. Green. One area we emphasized in the unclassified 
report is deployment forward.
    Senator Blumenthal. Deployment of another six?
    Dr. Green. Yes. To us, it makes sense to put more Los 
Angeles class in Guam and eventually Virginia-class----
    Senator Blumenthal. But you also identified as critical the 
Ohio replacement program.
    Dr. Green. Right.
    Senator Blumenthal. And that will take a major investment. 
So my question is, in targeting resources, how would you 
suggest that we preserve that as a priority of the Navy?
    Dr. Green. Well, as General Conant said earlier, of the 
different assets we want forward deployed to have a credible 
deterrent, submarines are at the top of the list. I would say 
followed closely by amphibious capabilities for the Marines.
    But I should let General Conant answer.
    General Conant. Senator, as I said before, it is such a 
valuable strategic asset that it does so many different 
missions. And I am talking subs, and we are looking at unmanned 
systems that go along with subs.
    Nobody is going to match that. Nobody can match our 
submarine crews. Nobody can match our ability to go on patrol 
and do what needs to be done in those special collection 
missions and other things they do anywhere else in the world.
    And it is something we should not back away from. And I 
think it is something we will have as a superior capability for 
some time to come.
    So I would be, again, really looking hard at how we do that 
investment.
    There is a part of the nuclear piece you need to look at, 
that is part of the triad that needs to be replaced. And that 
is another deterrence value that sends a strong message, sir.
    Senator Blumenthal. The amount of the investment in the 
Ohio replacement is so large, $100 billion, shouldn't the 
financing, the funding for it, come from the DOD as a whole, 
not limited to the Navy budget?
    General Conant. Being a former programmer in the Marine 
Corps, I used to hear those conversations about HMX [Marine 
Helicopter Squadron One] and other things that people said they 
cannot afford to fund. At the end of the day, the Navy has 
that, I think, responsibility. Whether they get a bigger share 
of the pie than others, I am all for that.
    But I do not who else--I mean, I do not know how you do 
that, other than creating a firestorm for the Pentagon 
comptroller, which he can handle.
    Senator Blumenthal. To shift to the unmanned undersea 
vehicles, is our investment sufficient now?
    General Conant. From what I have looked at, I think you are 
doing well. I think you can do little bit more. As you look at 
maybe doing some aspect of unmanned systems that have other 
things in them that pop up, and all of a sudden in a battle 
space can contribute to that knowledge and to that ability to 
control it. It is a little bit classified, but again, it is 
talking in generalities here.
    I think the Navy is doing a very, very good job at looking 
at that. I was briefed on that right before I left PACOM. So, 
again, I would watch it with a close eye. It may become a bill 
payer as other things come due.
    Senator Blumenthal. I just want to finish, in the seconds I 
have left, to ask you about institutionalizing a culture of 
experimentation, which I view as a very promising vision, the 
idea of the red and green teams, and awarding citations, and so 
forth.
    Has that been proposed before? And has it ever been 
implemented in the Department of Defense or intelligence 
community?
    General Conant. Yes, we have used that numerous times as we 
looked at different plans. But my experience with General 
Krulak, back during his commandant days when he said we do not 
have any money but we have our brains. So you can apply a very 
small investment into this red team, blue team, gold team, 
white team, whatever you want to call it, and apply the 
intellectual rigor against how we should be doing things 
different. That was when I talked about these new conceptual 
pieces that we are going to have to think about.
    Senator Blumenthal. And that is one of the recommendations 
of the report?
    General Conant. Yes.
    Senator Blumenthal. Thank you, Mr. Chairman.
    General Conant. And you see that being done up in the Naval 
War College and the Air War College and Marine War College. 
They are starting to look at these new concepts.
    But you ought to get the service labs really involved in 
what is the art of the possibility, because sometimes you are 
just going to study something you are not going to gain for 20 
years, and you do not have the time to invest in it.
    Senator Blumenthal. Thanks very much.
    Chairman McCain. Senator King?
    Senator King. Two areas that I would like to talk about, 
North Korea nuclear policy and also the area of most immediate 
potential conflict with China, which is the South China Sea.
    Shouldn't we change the name of the South China Sea? It is 
not anywhere near China.
    I do not understand how they claim the Spratly Islands, 
which is about the same distance from China as Venezuela is 
from us. How are we going to deal with this incredibly 
expansive claim, which does not necessarily affect us but all 
those other regional--Vietnam, Malaysia, although other 
regional countries that are encompassed in this? It just seems 
that this is fraught with risk.
    What is the thinking of the group on what we should do to 
deal with this issue?
    General Conant, do you want to take a pass at that?
    General Conant. Sure. First of all, I do not think we let 
them define the problem set, them being China. So the nine-dash 
line came out, spent a couple years trying to figure out what 
it was all about, and it comes from a historical document. And 
so, therefore, they think they have a claim.
    It kind of goes back to Senator Kaine's question on UNCLOS. 
If you are not there at the table and you do not have your best 
lawyers engaging in the law of warfare, the lawfare that they 
use against us, that they think against us in a strategic 
context, then you are not going to get there.
    I wouldn't rename anything.
    Senator King. I was being facetious.
    General Conant. I know, sir. But historical norms, I think 
it is worth the engagement. But again, they will say the 
relevancy is, are you a treaty signator or not? But I think 
that is worthy of it.
    But they are out and about, and they are reclaiming rocks, 
submerged assets, submerged----
    Senator King. Well, they are reclaiming, but they are also 
rebuilding airstrips on them and reconstructing.
    General Conant. They are.
    Senator King. I agree with you on the Law of the Sea 
Treaty. We are on the sideline, and I think we are undercutting 
our own national interests by not being at the table.
    We recently did a kind of sail-by to establish 
international waters. What should be our actions? What should 
we do to assist in trying to move toward a resolution of what I 
see as a long-term potential problem?
    Dr. Green. Senator, as a spinoff of this report, which was 
commissioned by your committee, we at CSIS have done a separate 
project, we would be happy to brief you or your staff on, on 
exactly that question. What would a counter-coercion strategy 
look like, to increase the cost to China and slow them down, 
frankly, try to get some stability in the region?
    Senator King. Are the neighbors down there concerned about 
this?
    Dr. Green. Absolutely. Every single one of them now. It 
used to be just the Philippines or Vietnam. But now, across all 
the members of the Association of Southeast Asian nations, 
ASEAN, there is concern.
    One thing we do have to do is recognize this is not just a 
manifestation of Chinese nationalism, that there are 
geopolitical and military operational implications.
    When we had the Taiwan Straits crisis with China in 1995, 
1996, that southern flank, that South China Sea, we could have 
entered with impunity. If we have another crisis with China in 
the first island chain with these airfields, they may be easy 
targets when the shooting starts, but before that point, with 
these airfoils, we will have to or our allies will have to 
stretch our attention and our forces to deal with that flank so 
that it is not a bastion for us, in effect, to be outflanked.
    Senator King. I would appreciate a briefing on that, on 
your report on that particular issue.
    The second question, very briefly, how does North Korea's 
recent actions with regard to missiles and nuclear tests change 
that calculus in terms of our deterrent, our commitment to our 
allies in the region? My concern is that if our allies lose 
confidence in our deterrent, they are going to develop their 
own capability, and then we are moving away from 
nonproliferation.
    General?
    General Conant. Yes, sir. I think that is a spot-on 
assessment. We have heard forever that China can influence 
North Korea to some factor.
    Senator King. I wish they would do it.
    General Conant. I am here to tell you, in personal 
conversations and other times, I just do not see that 
happening. So the worst thing that could happen, if Kim Jong-un 
decides to not only nuclearize but miniaturize a delivery 
vehicle, put it on a three-stage Taepodong, then you have an 
existential threat that we have not thought about before.
    It is in our interests to ensure that that never happens or 
that does not happen.
    To think that we can count on China helping us with that, I 
am not sure history has shown us that is going to happen.
    Senator King. Thank you. I would like to pursue that issue, 
too, offline.
    Thank you very much, gentlemen, for your testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    To what degree do you think the successful passage of the 
Pacific trade agreement is important to our defense policy in 
the Pacific region?
    Dr. Green. It is very important. Passage of TPP would 
indicate--I mean, there are economic advantages. But in 
addition to those, the passage of TPP, in short, indicates 
American competence and willpower.
    From an Asian perspective, TPP looks so obviously in 
American interests economically and strategically, it would be 
very difficult to explain why we could not pass it. And it 
would raise questions, and I hear these in the region. And I 
apologize if I am being too blunt, but it would great questions 
about our willpower to lead in that region and our competence 
in assembling tools that the region wants to help us assemble 
to lead.
    So it is not just about economics, Senator. I think it gets 
to the heart of what is ultimately the most important thing to 
this region. They care about how many subs we have. They care 
about how many Marines we have. But they care, above all, about 
our willpower and our competence to lead.
    Senator Nelson. General?
    General Conant. Yes, sir. I think it is extremely important 
because it is another factor of U.S. strategic vision on what 
should happen out in that region.
    The factor that you have such people as Vietnam and 
Cambodia wanting it to happen for the benefit to themselves is 
tremendous.
    Again, it is a shared awareness that you are going to have 
over 40 percent GDP [gross domestic product] production out of 
that part of the world. And not to have some kind of trade 
agreement or partnership with them would seem to be not in the 
best strategic vision sense for this Nation.
    But a lot of capability out there that goes both ways.
    Senator Nelson. And does it get us in the economic door 
before China with those countries?
    Dr. Green. Senator, it does, in many cases.
    For example, there are estimates that $100 million a year 
of trade with the U.S. would shift from China to Vietnam 
because Vietnam is in TPP, and Vietnam would be accepting the 
rules, not just the tariff, but the behind the border rules.
    TPP is important for another reason, which is, it is 
sparking a debate in China about whether they can afford to be 
outside of the emerging rules in the Asia-Pacific region. So 
the complexity of the strategy we describe in our report is, we 
are trying to deter China, we are trying to shape China's 
behavior, but we do not want to make China an enemy. TPP is one 
of the tools that allows us to force people in Beijing to think 
about the advantages of being in a rules-based system and the 
cost of being out. They can do the math and figure that out.
    Over the past few years, once Japan committed to TPP, the 
debate in Beijing changed. Instead of talking about this as 
containment of China, they talked about it as the external 
pressure they need to reform their economy.
    So it has a multiplier effect for us that goes beyond the 
job creation, recognizing, of course, that trade is hard, 
because there are winners and losers in these agreements.
    Senator Nelson. If I am correct, the sand spits that they 
are now turning into runways are between Vietnam and the 
Philippines. If that is the case, and if you were the commander 
in chief, what would you do and how close would you run our 
naval vessels? And beyond that, as a show of force, what would 
you do to deter this Chinese strategy?
    General Conant. Good question. A difficult question, first 
of all. But I will not speak for anybody but myself.
    I think, in that aspect, you need an engagement process 
that shows those transits of ships, the overflight of 
airplanes. You are going to have your reconnaissance missions 
out there trying to see what they are doing and what they are 
not doing.
    I think that process alone sends a strong message. But 
every time we do that, there is a process it has to go through 
to approve those missions, and it is very complex, convoluted. 
And sometimes it takes days, weeks, to get that approval. 
Sometimes they are turned off at the last minute.
    So if you want true freedom of navigation through the air 
and through the sea, then we should be trying to empower those 
commanders on a reasonable basis in consultation with the 
administration on when we run them and how we should run them.
    We know how to do this, sir. We have done it before. And it 
should not threaten anybody.
    But the fact that China is squawking so hard about it is 
probably something that we ought to pay attention to. It may be 
a deterrence factor in the end.
    And also allies and partners, we have five allies. We have 
very many partners out there, and the partners are as important 
as allies.
    Dr. Green. If I may, Senator?
    I agree completely with General Conant's recommendations.
    First and foremost, we need to do more of these freedom of 
navigation operations, and we probably need to do one near 
Mischief Reef or one of these undersea features, to demonstrate 
that we and our allies will welcome it, and our partners do not 
accept China's claim that this is an island with territorial 
rights.
    On a broader strategic scale, I think the assumption in 
Beijing is that time is on their side and that our bilateral 
alliances in Asia will gradually whither as China becomes more 
important economically. If China sees that its actions are not 
only strengthening our alliances, but causing more cooperation 
and networking across alliances--the U.S., Australia, Japan, 
India, support for the Philippines--that is not built into 
their assumptions about China's longer term interests in Asia.
    I think that is how you cause second thought in Beijing. If 
they start creating the antibodies in the system to come 
together because of what they are doing, they will have to 
rethink their assumptions about China's future strategic 
interests and position in the Asia-Pacific region.
    Chairman McCain. Well, I want to thank the witnesses. 
Amongst the many recommendations I am interested in is one of 
your recommendations about encouraging Japan to establish a 
joint operations command. Thinking outside of the box, now that 
there seems to have been a reconciliation between Japan and 
South Korea, you might even think about expanding that as well.
    I think one of the least noticed, but more important events 
of recent years is finally resolving the comfort women issue, 
so that we could have arguably the two strongest nations in the 
Pacific region with us in a much more coordinated fashion.
    And I think the witnesses would agree that things are not 
going to get quieter in the Pacific region, in the near future 
anyway. So I thank you all.
    Senator Reed do you have anything?
    Senator Reed. No, sir. Thank you very much.
    Chairman McCain. Thank you very much. The hearing is 
adjourned.
    [Whereupon, at 11:04 a.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
